Audit Report




 OIG-12-071
 GOVERNMENT-WIDE FINANCIAL MANAGEMENT: The Financial
 Management Service Implemented Corrective Actions for Private
 Collection Agencies
 September 10, 2012




 Office of
 Inspector General
 DEPARTMENT OF THE TREASURY
Contents


Audit Report .................................................................................... 1

Background ..................................................................................................   2

Objectives, Scope, and Methodology ................................................................             3

Corrective Actions Taken by FMS ....................................................................            3

Appendices

    Appendix 1:          Management Response ........................................................           6
    Appendix 2:          Report Distribution…..……………………….………… ..................                                7

Abbreviations

    CAV                  Corrective Action Verification
    DCIA                 Debt Collection Improvement Act of 1996
    DMS                  Debt Management Services
    FMS                  Financial Management Service
    JAMES                Joint Audit Management Enterprise System
    OIG                  Department of the Treasury Office of Inspector General
    PCA                  private collection agency




                         FMS Implemented Corrective Actions for Private Collection Agencies                Page i
                         (OIG-12-071)
         This Page Left Intentionally Blank.




FMS Implemented Corrective Actions for Private Collection Agencies   Page ii
(OIG-12-071)
                                                                                           Audit
OIG
The Department of the Treasury
                                                                                           Report
Office of Inspector General




                      September 10, 2012

                      David A. Lebryk
                      Commissioner
                      Financial Management Service

                      Under the Debt Collection Improvement Act of 1996 (DCIA),
                      the Financial Management Service (FMS) maintains a schedule
                      of private collection agencies (PCA), which are private sector
                      companies having expertise in the area of debt collection, to
                      assist the government in its debt collection efforts. As part of
                      its Cross-Servicing program,1 FMS attempts to collect
                      delinquent debt through several means, including demand
                      letters, telephone calls, offset against tax refunds,
                      administrative wage garnishment, and credit bureau reporting.
                      Once FMS has exhausted efforts to collect any outstanding
                      debt itself, the debt is sent to a PCA for collection. The
                      collection activities of the PCAs are monitored by FMS’s Debt
                      Management Services (DMS).

                      This report presents the results of our review of the corrective
                      actions taken by FMS in response to recommendations made in
                      audit reports issued by our office in September 2008 and
                      January 2009 on three PCAs. Specifically, we reviewed the
                      corrective actions for four of the eight recommendations made
                      in the following reports. The four recommendations we did not
                      include in this review were similar to the four recommendations
                      that we did select.

                      •   OIG-08-043, Private Collection Agencies: Pioneer Credit
                          Recovery, Inc., Needs to Improve Compliance with FMS’s
                          Debt Compromise Requirements (Sep. 26, 2008) –
                          2 recommendations reviewed

1
 Cross-Servicing is the process required by DCIA whereby federal agencies refer delinquent non-tax
debts over 180 days delinquent to FMS for collection.

                      FMS Implemented Corrective Actions for Private Collection Agencies        Page 1
                      (OIG-12-071)
                        •   OIG-08-044, Private Collection Agencies: Linebarger,
                            Goggan, Blair & Sampson, LLP, Needs to Improve
                            Compliance with FMS’s Debt Compromise Requirements
                            (Sep. 26, 2008) – 1 recommendation reviewed

                        •   OIG-09-025, Private Collection Agencies: Diversified
                            Collection Services, Inc., Needs to Improve Compliance with
                            FMS’s Debt Compromise Requirements (Jan. 8, 2009) –
                            1 recommendation reviewed

                        In brief, we found that FMS has taken steps to ensure the
                        deficiencies found with the PCAs in our prior audits were
                        corrected. The recommendations we reviewed and the results
                        of our follow-up are discussed in the Corrective Actions Taken
                        by FMS section of this report below. In a management response
                        to this report, FMS stated that it reviewed the draft report and
                        was in agreement. The management response is provided in
                        appendix 1.


Background
                        Audit follow-up is an integral part of good management and a
                        shared responsibility of management and auditors. Each agency
                        should establish an audit follow-up system to assure the prompt
                        and proper resolution and implementation of audit
                        recommendations.2 Treasury Directive 40-03, “Treasury Audit
                        Resolution, Follow-Up, and Closure,” requires bureau staff to
                        ensure that (1) audit recommendations are resolved on a timely
                        basis, (2) resolved audit recommendations (i.e., those agreed to
                        by bureau management) are promptly acted upon and that
                        progress with respect to proposed and ongoing corrective
                        actions is adequately monitored, and (3) statistical information
                        and other data are appropriately reported pursuant to all
                        statutory and regulatory requirements.

                        The status of audit recommendations is tracked in Treasury’s
                        Joint Audit Management Enterprise System (JAMES), a system
                        accessible to both the Department of the Treasury Office of
                        Inspector General (OIG) and bureau management. JAMES

2
    Office of Management and Budget Circular A-50 Revised, “Audit Follow-Up.”

                        FMS Implemented Corrective Actions for Private Collection Agencies   Page 2
                        (OIG-12-071)
             contains tracking information on audit reports from their
             issuance through completion of all actions related to findings
             and recommendations.

Objectives, Scope, and Methodology
             The objective of this corrective action verification (CAV) was to
             determine whether FMS management had taken corrective
             actions responsive to our recommendations to improve PCAs’
             compliance with the FMS’s debt compromise requirements.
             While we made eight recommendations in the three reports, for
             this CAV we followed up on four of them because the
             recommendations not included in this review were similar to the
             four recommendations that were selected for review.

             To accomplish our objective, we interviewed FMS officials in
             DMS and obtained supporting documentation. We also
             contacted one PCA to gain a better understanding about a debt
             compromise issue. We queried JAMES to review the status of
             the recommendations and reviewed FMS documentation
             supporting its closure of the recommendations. In addition, we
             reviewed the annual compliance reviews conducted by DMS
             and an updated version of the DMS PCA Operations and
             Procedures Manual. We performed our fieldwork from March to
             May 2012 at FMS’s headquarters in Washington, D.C.

             We conducted this performance audit in accordance with
             generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain
             sufficient, appropriate evidence to provide a reasonable basis
             for our findings and conclusions based on our audit objectives.

Corrective Actions Taken by FMS

             OIG-08-043 – Recommendation 2

             We recommended that FMS take action to ensure Pioneer Credit
             Recovery, Inc. (Pioneer) properly documents its justification for
             all compromise agreements.



             FMS Implemented Corrective Actions for Private Collection Agencies   Page 3
             (OIG-12-071)
                       In response to the recommendation, FMS issued a technical
                       bulletin to all PCAs to remind and reinforce the requirement to
                       properly document the justification for all compromise
                       agreements. In addition, during a DMS annual compliance
                       review of Pioneer covering the period May 2009 to April 2010,
                       FMS found 38 out of 39 sampled debt compromise cases were
                       in compliance with its technical bulletin. For the one
                       noncompliant case, Pioneer failed to obtain FMS’s approval for
                       the justification of the debt compromise. After being informed
                       of the matter, Pioneer counseled the responsible manager on
                       the importance of contacting FMS in these instances. FMS was
                       satisfied with the action taken.

                       OIG-08-043 – Recommendation 4

                       We recommended that FMS take action to ensure that Pioneer
                       includes the 30-day provision3 in all compromise agreement
                       letters.

                       In response to the recommendation, FMS had Pioneer submit a
                       revised sample letter which included the required provision. In
                       addition, FMS sampled 18 compromise agreement letters issued
                       by Pioneer between May 2009, and April 2010, and found all
                       18 letters included the 30-day provision.

                       OIG-08-044 – Recommendation 1

                       We recommended that FMS take action to ensure that
                       Linebarger, Goggan, Blair & Sampson, LLP (Linebarger), conduct
                       additional training or take other corrective action to ensure that
                       its employees properly document the steps taken prior to
                       compromise.

                       In response to the recommendation, FMS conducted a 2-day
                       Best Practices Debt Collection Forum in September 2008 for
                       PCAs, which a Linebarger employee attended. We reviewed the
                       forum agenda and materials used for the forum, and concluded

3
  PCAs are required to include in all accepted payment agreements a provisional notice that failure
by the debtor to bring the account current within 30 calendar days from the payment due date will
result in (1) the agreement becoming null and void and (2) the original amount of the debt being
reinstated and due immediately, minus any payments and plus any accruals.

                       FMS Implemented Corrective Actions for Private Collection Agencies         Page 4
                       (OIG-12-071)
that the forum served as a useful training venue for PCA
employees to enhance their awareness of documentation for
debt compromise. In addition, FMS sent a technical bulletin to
PCAs to remind and reinforce the way to properly document the
steps taken before compromise.

OIG-09-025 – Recommendation 2

We recommended that FMS take action to ensure that
Diversified Collection Services, Inc. (Diversified) sends and
retains copies of compromise agreement letters in each case
where a compromise is reached.

In response to the recommendation, FMS verified that
Diversified sent and retained copies of compromise agreement
letters for a sample of 20 debt compromise cases without
exception.

                            * * * * *

We would like to extend our appreciation for the cooperation
and courtesies extended to our staff during the review. If you
have any questions, please contact me at (202) 927-6512. The
major contributors to this report were Myung Han, Audit
Manager, Shaneasha Edwards, Analyst-In-Charge, and Jennifer
Adamson, Auditor.



/s/
Michael J. Maloney
Director, Fiscal Service Audits




FMS Implemented Corrective Actions for Private Collection Agencies   Page 5
(OIG-12-071)
Appendix 1
Management Response




FMS Implemented Corrective Actions for Private Collection Agencies   Page 6
(OIG-12-071)
Appendix 2
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Financial Management Service

    Commissioner
    Assistant Commissioner, Debt Management Services
    Director, Internal Control Branch (OIG Liaison)

Office of Management and Budget

    OIG Budget Examiner




FMS Implemented Corrective Actions for Private Collection Agencies   Page 7
(OIG-12-071)
